OIG Audit Report GR-70-08-004

National Institute of Justice Convicted Offender DNA Backlog Reduction Program Cooperative Agreement to the New York State Police Forensic Investigation Center, Albany, New York

Audit Report GR-70-08-004


September 2008
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ) Office of the Inspector General (OIG), Audit Division, has completed an audit of the National Institute of Justice (NIJ) Convicted Offender DNA Backlog Reduction Program cooperative agreement 2006-DN-BX-K246. This agreement provided the New York State Police (NYSP) a total of $825,000 to reduce its backlog of convicted offender DNA samples through in-house analysis and data review. 
 The objective of our audit was to determine whether the costs reimbursed under the agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the agreement. We also assessed the NYSP’s program performance in meeting agreement objectives and overall accomplishments. 
We determined that the NYSP generally complied with the requirements of the cooperative agreement, and was successful in meeting its objectives. However, we found that the NYSP did not submit all required progress and performance reports timely and accurately. In addition, we have concerns about the way in which the NYSP used its agreement funding relative to the objectives of the Convicted Offender DNA Backlog Reduction program and related requirements. Specifically, we have concluded the NYSP did not thoroughly document that the DNA samples being analyzed with agreement funds were incremental or additional to what the NYSP could accomplish with its own existing funding.
 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with NYSP officials and have included their comments in the report, as applicable. In addition,  we provided a draft report to both the NYSP and NIJ for comment on our recommendations. The NYSP response can be found in Appendix II, while NIJ’s response, provided by the Office of Justice Programs, can be found in Appendix III. Our analysis of those responses, as well as the actions necessary to close the recommendations can be found in Appendix IV of this report.







Return to OIG Home Page